<html>
<title> - WILL TRANSPORTATION AND THE FAA BE READY FOR THE YEAR 2000?</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
      WILL TRANSPORTATION AND THE FAA BE READY FOR THE YEAR 2000?

=======================================================================

                             JOINT HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
                      INFORMATION, AND TECHNOLOGY

                                 of the

                     COMMITTEE ON GOVERNMENT REFORM

                                and the

                       SUBCOMMITTEE ON TECHNOLOGY

                                 of the

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 15, 1999

                               __________

                     Committee on Government Reform

                           Serial No. 106-43

                          Committee on Science

                           Serial No. 106-46

                               __________

   Printed for the use of the Committee on Government Reform and the 
                          Committee on Science


     Available via the World Wide Web: http://www.house.gov/reform

                                 ______


                    U.S. GOVERNMENT PRINTING OFFICE
60-888 CC                   WASHINGTON : 1999



                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  ------ ------
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
JOHN T. DOOLITTLE, California            (Independent)
HELEN CHENOWETH, Idaho


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Government Management, Information, and Technology

                   STEPHEN HORN, California, Chairman
JUDY BIGGERT, Illinois               JIM TURNER, Texas
THOMAS M. DAVIS, Virginia            PAUL E. KANJORSKI, Pennsylvania
GREG WALDEN, Oregon                  MAJOR R. OWENS, New York
DOUG OSE, California                 PATSY T. MINK, Hawaii
PAUL RYAN, Wisconsin                 CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
                   Matt Ryan, Senior Policy Director
                          Mason Alinger, Clerk
                     Faith Weiss, Minority Counsel



                          COMMITTEE ON SCIENCE

       HON. F. JAMES SENSENBRENNER, Jr., (R-Wisconsin), Chairman
SHERWOOD L. BOEHLERT, New York       GEORGE E. BROWN, Jr., California, 
LAMAR SMITH, Texas                       RMM**
CONSTANCE A. MORELLA, Maryland       RALPH M. HALL, Texas
CURT WELDON, Pennsylvania            BART GORDON, Tennessee
DANA ROHRABACHER, California         JERRY F. COSTELLO, Illinois
JOE BARTON, Texas                    TIM ROEMER, Indiana
KEN CALVERT, California              JAMES A. BARCIA, Michigan
NICK SMITH, Michigan                 EDDIE BERNICE JOHNSON, Texas
ROSCOE G. BARTLETT, Maryland         LYNN C. WOOLSEY, California
VERNON J. EHLERS, Michigan*          ALCEE L. HASTINGS, Florida
DAVE WELDON, Florida                 LYNN N. RIVERS, Michigan
GIL GUTKNECHT, Minnesota             ZOE LOFGREN, California
THOMAS W. EWING, Illinois            MICHAEL F. DOYLE, Pennsylvania
CHRIS CANNON, Utah                   SHEILA JACKSON-LEE, Texas
KEVIN BRADY, Texas                   DEBBIE STABENOW, Michigan
MERRILL COOK, Utah                   BOB ETHERIDGE, North Carolina
GEORGE R. NETHERCUTT, Jr.,           NICK LAMPSON, Texas
    Washington                       JOHN B. LARSON, Connecticut
FRANK D. LUCAS, Oklahoma             MARK UDALL, Colorado
MARK GREEN, Wisconsin                DAVID WU, Oregon
STEVEN T. KUYKENDALL, California     ANTHONY D. WEINER, New York
GARY G. MILLER, California           MICHAEL E. CAPUANO, Massachusetts
JUDY BIGGERT, Illinois               VACANCY
MARSHALL ``MARK'' SANFORD, South     VACANCY
    Carolina
JACK METCALF, Washington


                       Subcommittee on Technology

               CONSTANCE A. MORELLA, Maryland, Chairwoman
CURT WELDON, Pennsylvania            JAMES A. BARCIA, Michigan**
ROSCOE G. BARTLETT, Maryland         LYNN N. RIVERS, Michigan
GIL GUTKNECHT, Minnesota*            DEBBIE STABENOW, Michigan
THOMAS W. EWING, Illinois            MARK UDALL, Colorado
CHRIS CANNON, Utah                   DAVID WU, Oregon
KEVIN BRADY, Texas                   ANTHONY D. WEINER, New York
MERRILL COOK, Utah                   MICHAEL E. CAPUANO, Massachusetts
MARK GREEN, Wisconsin                BART GORDON, Tennessee
STEVEN T. KUYKENDALL, California     TIM ROEMER, Indiana
GARY G. MILLER, California

                               Ex Officio

F. JAMES SENSENBRENNER, Jr.,         GEORGE E. BROWN, Jr., California+
    Wisconsin+





                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 15, 1999...................................     1
Statement of:
    Willemssen, Joel C., Director, Civil Agencies Information 
      Systems, General Accounting Office; Mortimer L. Downey, 
      Deputy Secretary, Department of Transportation; Jane F. 
      Garvey, Administrator, Federal Aviation Administration; and 
      Kenneth M. Mead, Inspector General, Department of 
      Transportation.............................................     8
Letters, statements, etc., submitted for the record by:
    Downey, Mortimer L., Deputy Secretary, Department of 
      Transportation, prepared statement of......................    33
    Garvey, Jane F., Administrator, Federal Aviation 
      Administration, prepared statement of......................    39
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California, prepared statement of.................     3
    Mead, Kenneth M., Inspector General, Department of 
      Transportation:
        Letter dated May 20, 1999................................    79
        Prepared statement of....................................    52
    Turner, Hon. Jim, a Representative in Congress from the State 
      of Texas, prepared statement of............................     6
    Willemssen, Joel C., Director, Civil Agencies Information 
      Systems, General Accounting Office, prepared statement of..    10


      WILL TRANSPORTATION AND THE FAA BE READY FOR THE YEAR 2000?

                              ----------                              


                        TUESDAY, MARCH 15, 1999

        House of Representatives, Subcommittee on 
            Government Management, Information, and 
            Technology of the Committee on Government 
            Reform, joint with the Subcommittee on 
            Technology of the Committee on Science,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Stephen Horn 
(chairman of the Subcommittee on Government Management, 
Information, and Technology) presiding.
    Present: Representatives Horn and Morella.
    Staff present from the Subcommittee on Government 
Management, Information, and Technology: J. Russell George, 
staff director and chief counsel; Matt Ryan, senior policy 
director; Bonnie Heald, director of communications; Mason 
Alinger, clerk; Faith Weiss, minority counsel, Committee on 
Government Reform; and Jean Gosa, minority staff assistant, 
Committee on Government Reform.
    Staff present from the Subcommittee on Technology: Jeff 
Grove, staff director; Ben Wu, professional staff member; and 
Joe Sullivan, clerk.
    Mr. Horn. A quorum being present, I call this joint hearing 
of the House Subcommittee on Government Management, 
Information, and Technology, and Subcommittee on Technology to 
order.
    Each year more than 500 million passengers board airplanes. 
Most of them are secure in the knowledge that they will reach 
their destination safely and reasonably on time. They depend on 
the intricate computers that keep the network of communications 
and mechanical systems running--whether the year is 1999 or 
2000.
    But that's only one part of the Nation's vital 
transportation infrastructure. The railroads are an equally 
integral part of the travel and commerce that support everyday 
life in America.
    Each year, thousands of lumbering freight trains move 
across the Nation's network of rail lines, carrying millions of 
tons of goods and raw materials. These are the items that keep 
our store shelves filled and our factories open. The railroads 
remain one of the most vital links to the continued prosperity 
of this country.
    The port of Long Beach, which is in my district, is the 
busiest container port in the United States, sixth busiest in 
the world. In 1997, nearly 60 million metric tons of cargo 
moved through the port, everything from petroleum, iron, and 
steel, to electronics, toys, and motor vehicles. Fifty percent 
of these imports are moved by train to cities in the Midwest 
and East.
    We must make sure that neither of these vital networks 
falls victim to the year 2000 computer problem.
    The challenge, often called the ``Millennium Bug'' or 
simply ``Y2K,'' dates back to the 1960's and 1970's when 
computers were bulky in size but small in memory. To conserve 
limited space, or memory, programmers began designating the 
year by using two digits rather than four. The year 1967, for 
example, appears as ``67.'' The first two digits are assumed to 
be ``19.''
    Unless corrected, these data-sensitive computer systems and 
microchips, embedded in countless mechanical devices, may 
misinterpret the two zeros in 2000 as 1900. The fear is that 
this confusion may cause the systems to generate erroneous 
information, corrupt other systems, or possibly shut down.
    In February the Department of Transportation, which is 
responsible for overseeing the Nation's air and rail lines as 
well as Federal highways and waterways, reported that only 53 
percent of its mission-critical computer systems are year 2000 
compliant.
    At the same time, the Federal Aviation Administration, 
which oversees air safety and operates the Nation's vital air 
traffic control system, reported that only 60 percent of its 
mission-critical systems were ready for January 1, 2000.
    The FAA has said it cannot meet President Clinton's March 
31st deadline to be 100 percent compliant. But will the agency 
be able to meet its own self-imposed deadline of June 30, 1999?
    To its credit, the FAA has historically maintained one of 
the finest safety records in the world, and we have no doubt 
that everyone at this agency is working extremely hard to 
retain that highly regarded status.
    We are here today to learn how the enormous year 2000 
challenge is being met--in the air, on the ground, and on the 
Nation's waterways.
    [The prepared statement of Hon. Stephen Horn follows:]
    [GRAPHIC] [TIFF OMITTED]60888.001
    
    Mr. Horn. I welcome today's witnesses and look forward to 
their testimony. We have a good part of the leadership of the 
Department of Transportation, with Deputy Secretary Mortimer 
Downey, Administrator of the Federal Aviation Administration 
Jane Garvey.
    We will start with our first witness, which is the 
representative of the General Accounting Office which is the 
Congress's programmatic and fiscal auditor. We try to send them 
into every agency. And so we welcome Joel Willemssen, Director, 
Civil Agencies Information Systems, GAO, part of the 
legislative branch, and Mr. Kenneth M. Mead, Inspector General, 
Department of Transportation.
    As you all know, we swear in all witnesses before this 
subcommittee, and I would ask you if some of your assistants 
are going to contribute to the dialog, I would just as soon 
swear in everybody now. That is what I did with the Department 
of Defense on another subject, and that saves me giving oaths. 
So if all will stand up, please raise your right hands.
    [Witnesses sworn.]
    Mr. Horn. I note that there are roughly 10 or 11 that 
affirmed that oath.
    And so we will begin with Mr. Willemssen----
    Mrs. Morella. Would you like me to make an opening 
statement?
    Mr. Horn. Sure. I didn't see you come in.
    Mrs. Morella. I am so small.
    Mr. Horn. The distinguished co-chairman of the working 
group, task force, on the House side, but more important, 
chairman of the Subcommittee on Technology of the House 
Committee on Science.
    Mrs. Morella. Thank you, Mr. Chairman. I am pleased to be 
here as chairman of the House Science Committee's Technology 
Subcommittee. I am pleased to join the Committee on Government 
Reform's Government Management, Information, and Technology 
Subcommittee in this important hearing to explore the impact of 
the year 2000 computer problem upon critical components of our 
Nation's transportation system.
    Our transportation system consists of many interlocking 
components, supported by a complicated aviation infrastructure 
and 5.5 million miles of public roads, rail track, waterways 
and pipelines. Over the years, advanced technologies and 
computers have been implemented by the transportation sector to 
improve efficiency.
    Inadvertently, its reliance on technology also exposes the 
transportation sector to significant Y2K risks. Clearly 
transportation and the movement of people and goods is 
absolutely vital to our Nation. We simply cannot afford to 
allow the mobility of our society to be disrupted by the 
millennium bug.
    The Office of Management and Budget, the General Accounting 
Office and the Inspector General, as well as the Congress, have 
been very critical of the Department of Transportation's Y2K 
efforts to date. Most of the criticism is due to the fact that 
the Department and the FAA did not begin to seriously address 
the extent of the year 2000 problem until February 1998, much 
too late.
    For its part, I must say that the Federal Aviation 
Administration under the leadership of Administrator Jane 
Garvey has been very forthright in recognizing its mistakes of 
the past. I am pleased to commend Administrator Garvey and the 
agency for the remarkable progress it has made in the last 
year. However, the job is not finished. There is still much 
work to do.
    Currently the FAA has implemented Y2K changes in roughly 
one-third of its air traffic control systems at its field 
sites. The remaining two-thirds are more complex and have to be 
installed at 3,000 different locations over the next 3 months. 
In addition to making sure that their own internal systems 
work, the FAA has also got to coordinate its efforts with 
airports, international organizations and other Federal 
agencies.
    There is still much to do and a very short amount of time 
to ensure that the right Y2K solutions are put into place. 
While I have confidence in their leadership, I am convinced 
that it is critical for the Department and the FAA to work 
proactively with all transportation stakeholders in the 
development of contingency plans that ensure that the 
transportation of people, goods and services are not 
significantly impaired on January 1, 2000 and beyond.
    So I am pleased that today we have a very distinguished 
panel of witnesses before us. I look forward to their comments, 
their recommendations. The fact that this is the fourth hearing 
we have held on transportation and year 2000 underscores its 
importance to our subcommittees and to our Nation. We all share 
the same goal of a seamless transition to the year 2000. The 
American people expect no less.
    Thank you, Mr. Chairman.
    Mr. Horn. Thank you very much, and without objection, the 
opening statement of the ranking minority member, Mr. Turner of 
Texas, will be put in the record at this point.
    [The prepared statement of Hon. Jim Turner follows:]
    [GRAPHIC] [TIFF OMITTED]60888.002
    
    [GRAPHIC] [TIFF OMITTED]60888.003
    
    Mr. Horn. We now begin with our first witness, Mr. Joel 
Willemssen, the Director of Civil Agencies Information Systems 
of the General Accounting Office. Mr. Willemssen.

  STATEMENTS OF JOEL C. WILLEMSSEN, DIRECTOR, CIVIL AGENCIES 
  INFORMATION SYSTEMS, GENERAL ACCOUNTING OFFICE; MORTIMER L. 
DOWNEY, DEPUTY SECRETARY, DEPARTMENT OF TRANSPORTATION; JANE F. 
  GARVEY, ADMINISTRATOR, FEDERAL AVIATION ADMINISTRATION; AND 
       KENNETH M. MEAD, INSPECTOR GENERAL, DEPARTMENT OF 
                         TRANSPORTATION

    Mr. Willemssen. Thank you, Mr. Chairman, Chairwoman 
Morella, and thank you for inviting GAO to testify today on 
DOT's Y2K readiness. As requested, I will briefly summarize our 
statement and in particular focus on the Y2K readiness of the 
Federal Aviation Administration.
    Over the past year FAA has made tremendous progress on Y2K. 
After a very slow start, FAA now has a strong management 
structure, an overall Y2K strategy, detailed standards and 
guidance, schedules and milestones for key activities, and a 
draft business continuity and contingency plan. Despite this 
progress, FAA still has a long way to go. Trying to play catch-
up after such a slow start, especially given the complexity of 
FAA's systems and environment, is an enormous undertaking.
    For example, many of FAA's mission-critical systems are not 
due to be implemented until after OMB's deadline this month. 
Several of these are among FAA's most critical systems. FAA 
also faces the challenge of making sure that validation of 
systems is sufficient and complete. In reviewing reports and 
test documentation for a sample of six mission-critical air 
traffic systems, we found that validation of three was 
supported. However, we found one other system's testing to be 
insufficient, and two systems lacked supporting documentation 
to determine whether testing was adequate.
    For example, for the automated radar terminal or ARTS-IIIA, 
system which provides aircraft position and flight plan 
information to controllers, FAA's validation may have been 
premature. This system continues to rely on a 1960's vintage 
computer. Home computers available today have 250 times the 
memory of this computer.
    Ten years ago we reported on the flight safety risks 
associated with this old computer and recommended to FAA that 
it pursue alternatives to replace the system. However, this 
computer is still used by air traffic controllers at over 50 
locations. In looking at this system for Y2K compliance, we 
found shortcomings in the analysis of the software, testing, 
and the contractors' determination of compliance.
    FAA faces other challenges. It still needs to deploy about 
75 systems to hundreds of air traffic facilities. Concurrently 
rolling out numerous system changes to multiple sites will be 
time-consuming and resource-intensive, and FAA has acknowledged 
that schedules are tight--with no room for delay.
    Data exchanges represent another major challenge for FAA. 
It reports more than 1,000 in its inventory and more than 100 
requiring modification, and we are continuing to review FAA's 
progress in this area. In-depth testing of multiple systems 
that have individually been deemed compliant is another key 
activity. FAA has made progress on this since our last 
testimony and now has developed detailed end-to-end test plans 
that we are continuing to review.
    In addition to the risks of its internal systems, FAA is 
also at risk that external systems will fail. For example, we 
recently reported on airports' efforts to address Y2K. Of the 
234 airports responding to our surveys, about one-third 
reported that they would complete their preparations by June 
30th. The other two-thirds planned on a later completion date 
or did not have an estimated completion date, and half of these 
did not have contingency plans for any of their core business 
functions.
    Because of the risk of system failures, whether from 
internal systems or reliance on external partners and 
suppliers, FAA needs a comprehensive business continuity and 
contingency plan to help ensure continuing operations. FAA has 
drafted such a plan and intends to release four more iterations 
of this plan throughout the year.
    That concludes a summary of my statement, and I would be 
pleased to address any questions you may have.
    [The prepared statement of Mr. Willemssen follows:]
    [GRAPHIC] [TIFF OMITTED]60888.004
    
    [GRAPHIC] [TIFF OMITTED]60888.005
    
    [GRAPHIC] [TIFF OMITTED]60888.006
    
    [GRAPHIC] [TIFF OMITTED]60888.007
    
    [GRAPHIC] [TIFF OMITTED]60888.008
    
    [GRAPHIC] [TIFF OMITTED]60888.009
    
    [GRAPHIC] [TIFF OMITTED]60888.010
    
    [GRAPHIC] [TIFF OMITTED]60888.011
    
    [GRAPHIC] [TIFF OMITTED]60888.012
    
    [GRAPHIC] [TIFF OMITTED]60888.013
    
    [GRAPHIC] [TIFF OMITTED]60888.014
    
    [GRAPHIC] [TIFF OMITTED]60888.015
    
    [GRAPHIC] [TIFF OMITTED]60888.016
    
    [GRAPHIC] [TIFF OMITTED]60888.017
    
    [GRAPHIC] [TIFF OMITTED]60888.018
    
    [GRAPHIC] [TIFF OMITTED]60888.019
    
    [GRAPHIC] [TIFF OMITTED]60888.020
    
    [GRAPHIC] [TIFF OMITTED]60888.021
    
    [GRAPHIC] [TIFF OMITTED]60888.022
    
    [GRAPHIC] [TIFF OMITTED]60888.023
    
    [GRAPHIC] [TIFF OMITTED]60888.024
    
    Mr. Horn. We thank you very much for that very succinct 
statement. We are going through all of the witnesses first, and 
then we will have questions for all panelists.
    I am delighted to present now the Deputy Secretary for the 
Department of Transportation, Mortimer L. Downey. Welcome.
    Mr. Downey. Thank you, Chairman Horn and Chairwoman 
Morella, for this opportunity to report on DOT's efforts to 
resolve the Y2K problem. I have a longer written statement 
which I would like to submit for the record.
    Mr. Horn. Automatically, all statements are put in the 
record the minute I mention your name.
    Mr. Downey. I am here today fully confident that all DOT's 
vital computer systems will effectively make the transition on 
January 1, 2000. I am sure most of you realize that OMB has 
classified DOT as an agency that is making limited progress, 
and that congressional evaluations have continually ranked us 
at the low end of government.
    While I understand how these determinations are made, they 
should not be taken as showing any lack of effort or 
commitment. Indeed, extraordinary effort is being applied to 
this challenge by many dedicated DOT employees, including Ms. 
Garvey and her staff and the IG's office, whose seal of 
approval goes on before any of our reports go out. We also 
appreciate the role of GAO, the questions that they raise as 
well as the model plans they have to guide our efforts.
    As of last Friday, March 12th, 64 percent of the 
Department's 607 mission-critical systems were Y2K compliant, 
as compared with our February report of 53 percent. And since 
this rate of progress is not linear, I should note that 85 
percent are projected to be compliant by March 31st.
    The FAA projects completion of its work by the schedule 
that they had set, which is the end of June 1999, and they have 
met their other goals to date. At that time, the end of June, 
approximately 99 percent of the Department's systems will be 
compliant.
    Those systems projected to be completed after June belong 
to the U.S. Coast Guard. The Coast Guard has scheduled 
completion of its final system, the Valdez, Alaska Vessel 
Traffic System, for October 1999. Due to complicated logistics 
and the weather conditions in Alaska, it is not possible to 
accelerate this project any further.
    I will continue to work closely with all of our DOT 
Administrators to ensure the success of our remediation 
efforts, but even with confidence that we have that our goals 
will be reached, we are preparing and will continue to refine 
comprehensive business continuity and contingency plans for 
each of our administrations to ensure that vital services will 
continue to operate; whatever the cause might be for any system 
failure.
    With respect to the broader challenges, we have 
aggressively reached out to our transportation partners, 
domestic and international, in all modes, land, sea and air, 
and will be happy to comment on those today. There has been a 
productive exchange of information which will continue, and we 
will inform this committee and the public of any potential 
areas of concern.
    In conclusion, I would like to reiterate the commitment 
that Secretary Slater and I have to ensuring that all DOT 
systems will operate properly before, during and after the 
millennium change, and we will keep you advised of our progress 
over the coming weeks and months.
    [The prepared statement of Mr. Downey follows:]
    [GRAPHIC] [TIFF OMITTED]60888.025
    
    [GRAPHIC] [TIFF OMITTED]60888.026
    
    [GRAPHIC] [TIFF OMITTED]60888.027
    
    Mr. Horn. Thank you, Mr. Secretary.
    We will now move to Ms. Garvey, a very distinguished 
Administrator in the past and currently, the Administrator of 
the Federal Aviation Administration.
    Ms. Garvey. Thank you very much, Chairman Horn and 
Chairwoman Morella. It is a pleasure to be here this morning to 
address the Y2K efforts of the FAA.
    Let me say at the outset that we have made tremendous 
progress, and I appreciate the General Accounting Office's 
comments in particular. We have made tremendous progress since 
I first appeared before this committee in February 1998. Since 
that time we have worked virtually around the clock to ensure 
that our skies would be safe and that air traffic will be as 
efficient as possible come midnight December 31st.
    Within the past year, we have caught up with much of the 
rest of the Federal Government, and I believe we may have 
surpassed the expectations of many people. I realize that you, 
Mr. Chairman, and many members of this committee have some 
concerns, and I hope that I can answer some of those concerns 
today.
    Currently the agency is in the validation phase, during 
which all repaired systems must be tested to ensure that all of 
the work accomplished during the renovation phase is complete, 
is correct, and is consistent. As of February 28th, we 
validated almost 80 percent of our mission-critical systems. We 
fully expect to complete validation for 100 percent of all of 
our systems by March 31st. That figure is for mission-critical 
and non-mission-critical.
    Our validation process includes an independent verification 
and validation review by an outside contractor, as well as some 
very helpful work from the IG's office. It also includes 
comprehensive end-to-end tests which test the 
interrelationships of our systems and whether the individual 
fixes will actually work together as a whole. In particular, we 
will be conducting an end-to-end test of FAA's operational 
facilities in Denver, CO on April 10th.
    As you know, after a system has been validated, it 
progresses to the implementation phase for key site testing and 
deployment. We have scheduled implementation to be completed, 
as the Deputy Secretary said, by June 30, 1999. Let me also 
stress while we will complete implementation by June 30th, we 
will continue to test and retest our systems for as long as 
possible and as rigorously as we can to make absolutely sure 
that we are prepared.
    Let me briefly mention our agency's contingency plan. The 
key to a successful contingency plan is involvement, we know, 
of our labor partners. Last October, the FAA briefed 
representatives from several unions on our contingency plan. 
That was followed by a series of workshops and meetings from 
October to December, resulting in a draft version of the 
contingency plan.
    As GAO has testified, the first version of that plan will 
be released on April 15th. We will continue to review that plan 
and to revise it as needed. We are working very closely with 
our labor unions on that issue. It is important, we think, to 
have a good contingency plan facility-by-facility. We see the 
development of the contingency plan as an evolutionary process.
    Within the aviation industry, we have sponsored several 
``Industry Days,'' which bring together key stakeholders from 
all sectors of the aviation industry. In addition, at the 
request of the President's Council on Y2K Conversion, we 
established an aviation industry Y2K steering group and a FAA 
outreach team. The purpose of this effort is to identify the 
issues, to develop a coordinated approach to solutions and, 
finally, to avoid duplication of effort.
    The steering committee is chaired by the FAA and membership 
includes leaders from a number of industry trade organizations. 
The committee meets biweekly and is responsible for keeping 
industry and government executives informed of the status of 
the Y2K effort.
    Airport readiness is another area of our outreach. I know 
this is a concern to members of the committee, given the GAO's 
recent report on airport readiness. GAO has appropriately 
raised some concerns in this area. I want you to know that the 
FAA is doing everything within our regulatory powers and even 
beyond to help airports achieve Y2K compliance.
    We are focused first and foremost on those elements that 
have the greatest effect on airport safety and security. We 
have provided a list of commonly used airfield equipment that 
use computers or embedded microchips. We have set criteria for 
verifying Y2K readiness of airport equipment, and we have 
detailed a 10-person FAA team to monitor progress by airport 
operators. The FAA wants to ensure, in fact we must ensure, 
that the airports achieve compliance with our safety 
regulations even if they cannot be fully Y2K compliant.
    Internationally, our work encompasses several efforts. Last 
April, the FAA issued a Y2K International Project Plan, 
outlining an effective strategy of cooperation and coordination 
with our international partners. We are working very closely 
with the International Civil Aviation Organization [ICAO], and 
the International Air Transport Association. An FAA employee 
has been assigned to work full-time with ICAO in their 
Montreal, Canada office to offer guidance and support for their 
Y2K coordination efforts. Both the Deputy Secretary and I had 
an opportunity on individual occasions to be briefed in 
Montreal over the last 2 weeks.
    Last September, I represented the FAA at the ICAO general 
assembly in Montreal, where the United States sponsored two 
resolutions. Both resolutions, I am pleased to say, were 
accepted. One directs the ICAO Secretary General to develop and 
publish standard Y2K assessment criteria. That was completed 
and issued at the end of January. The second resolution urges 
States to submit to ICAO the status of their Y2K readiness. 
That information must be reported to ICAO by June 30, 1999.
    FAA has also initiated informal working groups with 
different international entities to solve common Y2K problems. 
We know that cooperation between Canada, Mexico and the United 
States is critical to ensure that the North American air 
transportation system does not suffer malfunctions on January 
1st. Our three countries have agreed to share information on 
national efforts regarding air navigation systems.
    Let me say in conclusion, Mr. Chairman, while I am very 
proud of the progress that we have made to date, we are not 
overconfident. We continue to work diligently on our own Y2K 
challenges while supporting the efforts of the aviation 
industry as best as possible.
    We have overcome many obstacles to get where we are today, 
but we know that many challenges lie ahead. I continue to 
remind the Y2K team that we have got to stay the course, that 
each benchmark, each inch mark, if you will, is critical. Each 
milestone is critical.
    That concludes my statement, Mr. Chairman, and I would be 
happy to answer any questions with my colleagues. Thank you 
very much.
    [The prepared statement of Ms. Garvey follows:]
    [GRAPHIC] [TIFF OMITTED]60888.028
    
    [GRAPHIC] [TIFF OMITTED]60888.029
    
    [GRAPHIC] [TIFF OMITTED]60888.030
    
    [GRAPHIC] [TIFF OMITTED]60888.031
    
    [GRAPHIC] [TIFF OMITTED]60888.032
    
    [GRAPHIC] [TIFF OMITTED]60888.033
    
    [GRAPHIC] [TIFF OMITTED]60888.034
    
    [GRAPHIC] [TIFF OMITTED]60888.035
    
    [GRAPHIC] [TIFF OMITTED]60888.036
    
    [GRAPHIC] [TIFF OMITTED]60888.037
    
    Mr. Horn. Thank you. That is a very succinct statement 
also.
    We are now honored to have with us the Inspector General of 
the Department of Transportation, Kenneth Mead. Are we still in 
the 20th year of Inspectors General, or did that finish with 
1998? This is a vital resource in our government. Proceed.
    Mr. Mead. Thank you, Mr. Chairman, Madam Chairwoman.
    First, a little over a year ago we testified before the 
same subcommittees. Our report then was not at all encouraging. 
We testified that FAA was then 7 months behind schedule in 
assessing the scope of their Y2K problems, let alone repairing 
the problems. There were serious questions whether the HOST 
computer used to control high altitude air traffic, would even 
make it to the year 2000, and FAA's schedule for fixing its 
computers was literally the 11th hour, or November of this 
year, leaving no cushion.
    We made a series of recommendations at that hearing. Chief 
among them was establishing strong central management and 
moving up completion milestones to June 1999. FAA responded, 
Mr. Chairman, and responded well to all these recommendations.
    Looking back, that February seems to me to mark a turning 
point. Commitment, leadership by the Secretary, the Deputy 
Secretary, the FAA Administrator, Mr. Koskinen and others, 
including oversight of this committee and GAO, have resulted 
unambiguously in a great deal of progress.
    Overall, we have a much higher level of confidence today 
than we did a year ago that DOT mission-critical systems, such 
as air traffic control will indeed be Y2K compliant, and that 
there will be sufficient room in the schedule to address 
computer interface problems that may develop. However, the job 
is not nearly done. We can't let up; there is still much to do. 
Here is where matters stand.
    DOT has 607 mission-critical systems. About 300 were OK to 
begin with; 309 had Y2K problems that had to be fixed. All but 
five of these have been, fixed, but this does not mean the fix 
has been installed at all field facilities which have a 
particular system.
    DOT, as has been noted, will not meet OMB's March 31 
milestone to have all systems compliant, and compliant means 
not only fixed but tested and installed in all locations. DOT 
expects to be 85 percent compliant by March 31st, 99 percent by 
June, and finished by late October.
    FAA and the Coast Guard have 90 of the 91 systems that 
won't be compliant by March 31st. I would like to move to the 
display chart that each of you have to explain more fully what 
this means.
    First, our numbers are as of February 28th. We had to have 
a cutoff to validate, but this is a moving target. Things have 
changed even since then. The 85 percent compliant figure on 
March 31st that you will hear about applies to the total 
universe of the 607 DOT mission-critical systems, which include 
systems not needing fixes. But let's focus for a moment on the 
309 systems for which repairs were required.
    First, all of the 151 FAA systems--I don't know if your 
eyes are good enough to read that, Mr. Chairman, mine aren't--
but for FAA, all of the 151 systems which had to be fixed are 
fixed. Most have been tested.
    The same is true for over 90 percent of the Coast Guard's 
systems that had to be fixed. The Coast Guard has the five 
systems that as of February 28th needed to be fixed, and only 
two of its 66 systems which require repairs have been fixed, 
tested and installed at all field locations. The Coast Guard 
bears watching, but we are certain that they are up to the 
task.
    Third, the 16 FAA tested systems reflects at least one of 
each mission-critical system has been repaired and tested. Once 
tested, FAA installs the fix at all air traffic facilities in 
the field. There are multiple units of the same computer system 
throughout the United States.
    In other words, the same repair or fix that was made to the 
computer system in the laboratory must now be made at air 
traffic facilities throughout the United States. That is the 
real challenge, Mr. Chairman, for both FAA and the Coast Guard, 
to install the fix in the field and make sure it works.
    To illustrate, as shown in red on that chart, for the 65 
air traffic systems that needed to be repaired, one-third have 
been fixed, tested, and installed throughout the country. That 
means the fixes for the remaining 44 air traffic systems have 
to be installed at field locations between now and the end of 
June. That equates to several thousand locations.
    For the Coast Guard, 64 of 66 system fixes must now be 
deployed to afloat or shore activities by the end of June. 
Also, we are paying special attention to the validation 
numbers, which is testing the fix. We found a need for FAA to 
be a bit more disciplined in providing support for the test 
results, and I think Mr. Willemssen has already alluded to 
that.
    I point these out not to detract, Mr. Chairman, in any way 
from the progress that has been made, but rather to illustrate 
the scope and importance of the remaining work.
    Second, with the short time remaining, DOT has to finalize 
workable contingency plans. We are concerned that FAA's two 
major unions, the controllers and maintenance technicians, 
still need to play an active role in the composition of these 
plans. These are the people who have to continue operations if 
unexpected failures occur.
    Third, moving to the industry, DOT, Coast Guard, Transit, 
and FAA, have done a good job of injecting a high level of Y2K 
awareness. Can more be done? Absolutely. Our sense of industry 
readiness in the aviation area is that major passenger and 
cargo carriers are managing Y2K preparation quite well.
    But we think, and I am speaking here only for the Office of 
Inspector General, that they should certify for the Department 
by November 1, large and small alike, that their systems are 
Y2K compliant. The Federal Transit Administration is requiring 
this of transit authority. We think that the FAA should require 
that as well. We have to make certifications to the Secretary, 
and the Secretary in turn to the Office of Management and 
Budget. I don't see any persuasive reason why regulated 
entities which carry passengers and cargo should not do 
likewise.
    GAO has already touched on airports, and I won't.
    Fourth, the international arena is one of continued 
concern. DOT has been working with various international 
organizations. Although awareness has increased greatly, there 
are at this hour far too many unknowns in other parts of the 
globe. We believe it is time to develop a policy as to whether 
U.S. carriers or U.S. code-share flights will be allowed to fly 
to countries that are not known to be Y2K compliant.
    Finally, I would like to close with the point that we in 
the Office of Inspector General stand ready to help in any way 
that we can. We found at all levels of the Department, 
regardless of the operating administration, an openness and 
support for the oversight and checking, and responsiveness to 
the recommendations that we have made.
    Thank you.
    [The prepared statement of Mr. Mead follows:]
    [GRAPHIC] [TIFF OMITTED]60888.038
    
    [GRAPHIC] [TIFF OMITTED]60888.039
    
    [GRAPHIC] [TIFF OMITTED]60888.040
    
    [GRAPHIC] [TIFF OMITTED]60888.041
    
    [GRAPHIC] [TIFF OMITTED]60888.042
    
    [GRAPHIC] [TIFF OMITTED]60888.043
    
    [GRAPHIC] [TIFF OMITTED]60888.044
    
    [GRAPHIC] [TIFF OMITTED]60888.045
    
    [GRAPHIC] [TIFF OMITTED]60888.046
    
    Mr. Horn. Thank you very much. My co-chairman and I will be 
alternating and questioning for about 5 minutes each until we 
get through all 200 questions that we have prepared here. Don't 
worry, it is only 190.
    Let me ask the Secretary a couple of things here.
    Do you concur that those are accurate figures as far as you 
see? Those are generally developed by your people, and the IG 
has gone in to look at it and I would ask Mr. Mead, are you 
pretty sure those figures are sound?
    Mr. Mead. Yes, sir, as of the end of February. Mr. Downey 
alluded to some more recent figures that we haven't validated 
yet, and that is why I was not sourcing those.
    Mr. Horn. February 12th was of course the quarterly report 
and that is what we based our judgment on. Is there anything 
new that wasn't in this chart of the Inspector General?
    Mr. Downey. We issue a monthly report to the OMB that was 
validated by the Inspector General. That is the report that 
would bring us up to 57 percent. The 64 percent was our 
informal review as of Friday, and before you get a monthly 
report at the end of this month it will also be validated by 
the IG, but that is the one that we expect to be at 85 percent.
    Mr. Horn. Besides seeing how rapidly an agency is 
implementing the testing and getting full compliance, we had 
four other criteria which the Department of Transportation was 
simply, ``in progress,'' whether it was 1 percent progress or 
200 percent progress we don't know. On the contingency plan, it 
was in progress. What is the contingency plan of the Department 
of Transportation?
    Mr. Downey. There will be about a dozen separate 
contingency plans, one for each of the major administrations. 
By the end of this month I think most of them will be complete 
in draft. Some of them will be issued in final. All of them 
will continue to be worked on right up to the end of the year 
as we work with other partners, because there will be 
contingency plans not only for things that should be within our 
control but for contingencies that will be beyond our control.
    Mr. Horn. Can you give me one example of one system that 
you have a contingency plan for?
    Mr. Downey. We have a full published contingency plan for 
the Federal Railroad Administration. It covers the internal 
systems of FRA. It also covers our work with the industry on 
safety related matters for the industry. We can provide that to 
you.
    Mr. Horn. What is the particular system you have that is 
the contingency? Is it another system in another agency or 
what?
    Mr. Downey. Well, for example, in Federal Rail one of the 
major systems is managing our Federal inspection activities. We 
can fall back to do it by paper and pencil, but we want to be 
sure that the business functions can continue.
    Mr. Horn. Have people in the Federal Railway 
Administration, have they been checking on microchips and what 
it might mean to their signaling?
    Mr. Downey. Yes. Throughout the industry we have worked 
with the railroads, large and small, and have found that signal 
systems, locomotives, crossing gates and all of the other 
safety-related equipment within the industry should perform 
well. While there are numerous microchips, they are all event-
sensitive and not date-sensitive, and so we should see those 
systems working.
    The thing that the industry is continuing to work on, and 
we are monitoring their progress, is the interrelated systems 
they have for managing freight cars and managing the flow of 
traffic. Those have to work not only within each railroad but 
across the entire industry. The American Association of 
Railroads has taken the lead on that, and is working with each 
of the major carriers to be sure that their systems will work 
together. The current report we have from them is that they are 
about 85 percent complete with the implementation and expect to 
meet a June 30th deadline.
    Mr. Horn. Besides completion, our second criteria on the 
February 12th reports was the degree to which your 
telecommunications system would be able to serve the computers 
on this. Is that true?
    Mr. Downey. We are including those telecommunication 
systems which are under our own control, such as FAA and Coast 
Guard systems, as part of our modernization and implementation 
efforts. We have to work with the telecommunication carriers 
where we are involved in using commercial systems. We are 
continuing to work with them, along with FCC and the General 
Services Administration, to be sure that those systems will be 
working.
    Mr. Horn. So you have your own internal systems and 
switches, that if say Bell Atlantic or whatever it is goes 
under because of some computer glitch in their switch, you have 
your own way of communicating with your people?
    Mr. Downey. In some cases, and in some cases they are 
directly linked through the commercial system, and in that case 
we have a risk in problems with the commercial system. That is 
one of the reasons for having our contingency plan. Should an 
issue beyond our control, as a Bell Atlantic or MCI switch 
fail, we have to have alternate means. Typically that means 
having alternate routings for the data flow.
    Mr. Horn. Those of us that were around when President 
Kennedy was assassinated recall that everybody picked up the 
phone to talk to their loved ones or whatever it was, and the 
switches just broke down. Have we looked at that situation and 
the disaster area since? In California it will be an earthquake 
or something.
    Mr. Downey. That is something that, working through the Y2K 
Council with John Koskinen, the Telecommunications Working 
Group is involved in that discussion. There are priority uses 
and priority users, and I think we will have an ability to be 
sure that the priority uses will be met. We cannot assure that 
every person in America will have a dial tone on their phone, 
but I think the safety-sensitive activities will be met.
    Mr. Horn. Our third criteria was embedded systems. To what 
degree are you getting into those systems and seeing what these 
little microchips will do?
    Mr. Downey. We are working that not only through the things 
through our own controls but through the industry. We have 
worked with aviation. Aviation is an easier one to work with 
because FAA maintains configuration control on all aircraft and 
really can tell us where there are chips, and they have found 
the areas where changes need to be made.
    We are concerned in the maritime area because there are 
thousands of ships out there and they are all unique, and at a 
later point I can tell you internationally what we are doing on 
that. We held a conference in London recently.
    We have checked out the transit systems, and we are now 
surveying the auto industry, who have told us informally there 
are no chips in our automobiles that we should worry about; but 
we would like to get a more formal response from them that says 
no individual automobile will go out of control because of a 
chip.
    Mr. Horn. That is good to know. I have a 1988 Mercury and I 
love it, and I bought it strictly because of that dashboard, 
and something has gone wrong already because a third of it 
doesn't show anything, but that is OK. Just keep after them.
    Just one last question on this. External data exchange, 
that was our further criteria. What have you got to do on that?
    Mr. Downey. We are working through our external data 
exchange. The FAA is most critical, with interchanges with the 
industry and with the Weather Service. My recollection is of 
about 1,000 areas of interchange, there were roughly 100 that 
might have problems and something like half of those have now 
been corrected, but we are working through all of our 
interchanges.
    Other areas that are important, maybe not safety-sensitive 
but important, are our flow of funds to the States for all of 
our grant programs. The States are very anxious to be sure that 
those payment flows can be made, and we will be working end-to-
end tests with them as well.
    Mr. Horn. I am delighted to yield 6 minutes to Mrs. 
Morella.
    Mrs. Morella. I must say this is a situation where I see 
very honest criticism of the system, with GAO, Inspector 
General, with our Deputy Secretary of DOT and our Administrator 
of FAA, criticism and cooperation, too. I think it is probably 
a singular exemplary example that could be followed, 
particularly because as we look at FAA it started, as we have 
all mentioned, so very, very late.
    Ms. Garvey, I would like to ask you to give us your 
response. Will FAA be ready by June 30th with contingency 
plans?
    Ms. Garvey. Yes, Congresswoman, we will be ready with a 
contingency plan. Our first version is going to be issued April 
15th and it contains two volumes. But again, those plans are 
going to be revised. We expect a second one to come out this 
summer, and then a third one in the fall, and the whole premise 
is that we will continue to work it.
    I think one of the issues--and I might add, by the way, 
that I think the involvement of the unions to date, and I 
absolutely hear what Mr. Mead says, that that must continue and 
we must involve them again and again, but I think the 
involvement to date has made the plan a better plan. And I 
expect that we will continue to work it facility-by-facility so 
that we are prepared. I want to publicly commend both Mr. 
McNally and Mr. Fanfalone for their personal involvement. It 
really has involved the highest levels of the union.
    Mrs. Morella. That is another element of the partnership 
that I commend, and I am so pleased that you are all working 
together cooperatively. I am glad to hear about the fact that 
you also believe that you will meet that deadline.
    I want to ask a question about the fact that you plan to 
conduct a lot of end-to-end tests in the coming weeks. When 
will the FAA interface with foreign air traffic control 
organizations as part of an end-to-end test?
    Ms. Garvey. Congresswoman, we have begun some of that 
testing now, particularly with Canada. NAV Canada has been a 
very active partner with us in conducting those tests. We have 
some more tests scheduled this month, around March 23rd, and we 
have a trilateral scheduled in May to talk with Canada and 
Mexico about the very issue of testing.
    We are continuing to work with a number of other 
international partners on testing through the spring and early 
summer. I can give you exactly what that schedule includes, but 
it includes a number of countries in Latin America as well as, 
of course, Mexico and Canada and European countries as well. I 
would be happy to follow up on that, with specific schedules.
    Mrs. Morella. And just expanding that question just a bit 
more, what steps will the FAA take to ensure that U.S. air 
carriers or U.S. code-share flights will only fly to countries 
that are proven to be Y2K compliant?
    And then I am going to ask if Mr. Willemssen and Mr. Mead 
would also comment on the questions that I have asked. Maybe 
Mr. Downey would like to, too.
    Ms. Garvey. The code-sharing, I may defer to the Deputy 
Secretary.
    Just to emphasize the work that we are doing with ICAO, we 
expect that the information that we all have internationally on 
June 30th is going to be very critical. I was briefed in 
Montreal on Friday, and I was pleased to see the work that ICAO 
and IATA were able to do to date, but we have some very hard 
decisions post June 30th, together with the State Department, 
with the industry, once we I think fully understand what the 
situation is. We will have some difficult decisions. But I am 
pleased with the information that is coming in and pleased with 
the forthrightness that really I think all of the countries 
have approached this issue.
    Mr. Downey. If I can followup on the code-share issue, 
which is an economic issue, we will be looking at that same 
information and, together with State, make two levels of public 
information available. One would be travel advisories with 
respect to foreign countries, and this would not only be with 
respect to their aviation systems but generally the state of 
play in those countries.
    With respect to U.S. carrier or code-shares where U.S. 
tickets are being used on a foreign airline, I believe we will 
look at safety as the issue, not necessarily Y2K compliance but 
assurance of safety, as we do today. We do not allow U.S. 
carriers to fly into any circumstance where we believe the air 
travel system is unsafe, and this would be one consideration as 
part of that.
    Mrs. Morella. How do you check the safety and compliance of 
international carriers? Do you rely on what they tell you?
    Mr. Downey. We do two things. We get information from the 
carriers. We put a lot of reliance on our review and ICAO's 
review of the certifying authority in the local country. We 
want to be sure that if country X certifies its carriers and 
airports as safe, that they actually have a good regime for 
doing that. We publish our evaluations of those regimes, and we 
take with considerable doubt any statement that comes from a 
country whose certification regime is less than adequate.
    Mrs. Morella. Do you feel some countries will be closed, 
their airports, thinking of Indonesia, some countries of that 
nature, their airports will be closed?
    Mr. Downey. We will know better after July, when we get the 
information from ICAO, and before September, and we have the 
full opportunity to evaluate it.
    Mrs. Morella. Mr. Willemssen and Mr. Mead, do you have any 
comments to the series of questions?
    Mr. Willemssen. In terms of contingency plans, we think 
that FAA has made very good progress in this area. They have 
put together an initial framework. I think their strategy of 
going forward with additional iterations makes sense, 
especially as they get more detail on the exact nature of the 
contingencies that they want to activate. There has been very 
good progress in that area.
    Likewise in the end-to-end testing area that you mentioned, 
they have got some good guidance put together and some good 
strategies for testing the most critical air traffic systems. 
We are going to continue evaluating to make sure that as much 
thorough testing is done as possible on those most essential 
air traffic systems.
    Mrs. Morella. Mr. Mead.
    Mr. Mead. Just two comments. I would agree with Mr. 
Willemssen. I would underscore, though, that with respect to 
the business continuity plans I think we need to pay special 
attention, as the Administrator I am certain is, to the 
involvement of both the maintenance technician union and the 
controllers, because at the individual system level if they 
need to use manual procedures, you definitely want their 
concurrence, and I am sure that they will have it.
    Second, on the code-sharing, the more we look at this, I 
think the public disclosure or advisories may not be sufficient 
and that we will need policy concerning whether U.S. airlines 
and the code-share airlines should be flying in certain foreign 
airspace. We will know a lot more by June about the readiness 
level of foreign countries.
    Mrs. Morella. Thank you.
    Thank you, Mr. Chairman.
    Mr. Horn. Thank you. Just for the record, when you hear the 
word ``ICAO'' it is not a boxer knocking somebody out. It is 
the International Civil Aviation Organization, which if I 
remember goes back to the League of Nations and it was 
inherited by the United Nations. That is where most people can 
get together and battle things out on international policy, and 
it is a very worthwhile organization.
    Let me ask a few questions in which I also want to involve 
the IG and the GAO. The FAA has established June 30th to have 
its computer system be ready to go. Do you think the FAA will 
make the June 30 deadline? Mr. Mead, will they?
    Mr. Mead. Yes, I do. I would not be surprised if there are 
some last minute testing issues that may extend it a bit past 
that day, but that is why FAA moved this milestone up from 
November to June, to allow that cushion for unexpected 
problems.
    Mr. Horn. Mr. Willemssen.
    Mr. Willemssen. I think it will be extremely difficult to 
meet that date with the kind of thoroughness of testing that we 
would expect on individual systems.
    Mr. Horn. Well, if they won't, why won't they make the 
deadline? What are the factors that affect that?
    Mr. Willemssen. The major factor affecting that is so many 
systems to implement at so many locations. Late last week the 
FAA program manager estimated to us that he had about 4,500 
events between now and the end of June. Each event means one 
system at one location. Multiply that by 4,500 in a little over 
3 months, and have it all go the way that it is supposed to 
go--with that many systems and that many locations--will be 
extremely difficult to do. If FAA can pull it off, great. We 
hope that they can. However, I am not sure that they can with 
the thoroughness of testing that we will be looking for.
    Mr. Mead. I would rather, Mr. Chairman, if we see in our 
monitoring of validation that Mr. Downey alluded to disclosures 
on the cutting of corners on testing, I would rather see 
implementation slip by 2 or 3 weeks rather than come up with a 
nice rosy report and later have to back off of it.
    Mr. Horn. I think everybody up here shares that view, also. 
Let's do it right. Are those in the regional centers or in the 
actual airports that these events take place?
    Mr. Willemssen. A range of facilities from en route centers 
to terminal radar approach control facilities to automated 
flight service stations. We counted up the different types of 
facilities and came up with a number of 654 different types of 
facilities, some with maybe one system, some with multiple 
systems. That is a huge challenge for any organization to have 
to deal with in a little over 3 months.
    Mr. Horn. Ms. Garvey.
    Ms. Garvey. First of all, let me say we do not minimize the 
challenge ahead of us. It is a big challenge, but I really do 
think that we have it laid out in such a methodical and 
thoughtful way that will allow us to meet that challenge.
    There are 100 events per sector. There are 33 sectors. We 
have the best technicians in the world, who know this system 
and have grown up with this system. In addition, we have 250 
specialists also assigned to it. So while it is an enormous 
challenge, we have it laid out by sector in such a way that it 
can be met, we think. But I would certainly agree and restate 
what the Inspector General said: We want to make sure that the 
testing is accurate and valid, and we welcome the involvement 
of both the GAO and the Inspector General in that effort.
    Mr. Horn. Any other comments to be made on this? In other 
words, you all agree if it is slippage of a few weeks, don't 
worry about it as long as we get the job done.
    Mr. Downey. None of us will stop worrying until the job is 
done.
    Mr. Horn. One of the first strategies in finding out how a 
system will perform through the year 2000 date change is to 
contact the vendor of the key components to determine if the 
vendor will certify that their products are Y2K compliant. FAA 
did not do this on the so-called ARTS-IIIA hardware. Now, why 
didn't we do this?
    Ms. Garvey. Mr. Chairman, we had some very intensive 
testing done with Lockheed Martin, and also actually with the 
firm that originally put together the ARTS-IIIA, and we have 
had lengthy discussions with GAO as recently as Friday. We 
think that the testing and validation is solid and good and we 
expect to get a letter today from Lockheed Martin to that 
effect. But we also agree if GAO has some concerns, Lockheed 
Martin has said that they will be happy to run the testing 
again so we can all have a level of comfort that we need. So we 
stand by the testing, and Lockheed Martin has done the 
validation, but we are happy to run it again if that would 
help.
    Mr. Horn. Mr. Willemssen, how do you feel about this?
    Mr. Willemssen. To the extent that the contractor in this 
case can provide a certification that this particular piece of 
hardware, manufactured more than 30 years ago, is indeed Y2K 
compliant, that will give the Federal Aviation Administration a 
greater level of assurance that issues will not come up.
    In terms of the software, there does need to be some 
additional testing done. The report that has been done thus far 
by the contractor indicates that the year is represented by two 
digits, not four. There are some Y2K ramifications possible, 
and we would like to see more thorough testing of the radar 
tracking function in particular to make sure that this issue 
doesn't surface.
    Again, one thing to keep in mind here, you vary the level 
of testing depending on the criticality of the system. This 
system is absolutely essential. It provides flight information 
and identification information to controllers, and therefore we 
think the bar needs to be pretty high.
    Mr. Horn. Well, does it also have to be earlier? As I look 
at the data from our own staff, these systems support critical 
FAA functions, as you noted, include aircraft surveillance and 
weather data processing, yet 12 of these systems will be among 
the last of the FAA systems to be completed. Is that a problem?
    Mr. Willemssen. Well, it is something that we wanted to 
point out in the statement in terms of making sure that FAA 
focuses, as I testified in August, on the most critical air 
traffic systems, and to make sure that the thoroughness of 
testing is especially focused on those particular systems. So 
it is noted that they are later in the process but again, as 
mentioned a few minutes ago, to the extent that it takes even a 
little longer than the current milestones to make sure that 
they are thoroughly tested, we would support that.
    Mr. Horn. Any other comments?
    Ms. Garvey. Just to reiterate, Lockheed Martin is very 
comfortable with it, but we would be happy to continue those 
discussions and further testing if necessary.
    Mr. Horn. Mrs. Morella.
    Mrs. Morella. Thank you, Mr. Chairman.
    I want to first of all pick up on the contingency plan 
concept. Ms. Garvey, if Mr. Willemssen's suggestions that 
contingency plans could be in a little difficulty with regard 
to meeting the deadline, which contingency plans, for which 
particular sector? Can you be specific?
    Ms. Garvey. There are about six systems that are critical, 
including the ARTS-IIIA, as GAO has testified. In addition, 
HOST, for example, is very, very important to us as well. So we 
would focus on those particular systems that are really 
critical to the working of the system, the heart and soul of 
the system.
    For example, HOST, if HOST fails, we have a backup system 
that would come into place and ultimately, if we are concerned 
enough, we would increase the separation or slow up the traffic 
to some degree. So those are the kinds of contingency plans, 
but you can look at a system like HOST, see what the backup 
system is and see what the backup is to that, with the ultimate 
being separation or further separation of the aircraft, actual 
delays if we need to.
    Mrs. Morella. Mr. Willemssen, you want to comment on that?
    Mr. Willemssen. I would. Again, we have been very 
supportive of the focus that FAA has had on the contingency 
planning over the last several months. They have focused from a 
business function perspective--that is, to look at it from end-
to-end. For example, in the surveillance of aircraft, one would 
focus on making sure that they are still appropriately 
separated and looking at the various things that could 
potentially go wrong, and if those events realize themselves, 
what kind of backup they would have in place. And I think they 
are moving in that direction. They have a good draft in hand 
that is ready to be fleshed out with some more details.
    Mrs. Morella. I see this as really very, very important 
because of the ``house of cards'' concept. One thing is 
connected to another. If one topples, the whole situation could 
be chaotic, and I guess you would agree with that.
    Mr. Willemsen. Yes.
    Mrs. Morella. It was just the other day I talked to some 
members. There was a conference here in the travel industry, 
and actually they did a reservation check and they found--it 
was in February, early February they found that their 
reservation system came through without a hitch for 
reservations, you know, January 2000 and beyond. However, they 
are obviously concerned about whether or not they will be able 
to fulfill these reservation contracts with their clients.
    So I guess I would ask you, in terms of the connections, 
what about luggage systems at airports? Are you overseeing the 
airports' alternative power sources, I mean, the electric 
generators? What about, you know, other terminal systems? Would 
you like to comment on some of those specifics?
    Ms. Garvey. Let me make a brief comment about that. From 
our perspective, from the FAA's perspective, we are focused on 
those systems that are related to safety and security. Airfield 
lighting, for example, is absolutely critical as are the 
condition of the fire trucks, and whether they are actually 
ready and Y2K compliant.
    That is really our focus. It is those elements that are 
part of the part 139 certification processes that airports need 
to go through. However, I will say that as we have the joint 
discussions every other week with industry, many of those other 
issues are coming up, and I know that ACI and AAAE and even ATA 
are spending a good deal of time with the airport operators on 
some of those issues. But really our critical issue is the 
safety and security element of it.
    Mrs. Morella. Would the rest of you agree? Would you, Mr. 
Willemssen?
    Mr. Willemsen. I think that is the appropriate focus. 
Again, since there is so much to do and limited time to do it, 
you have to focus on those important areas.
    Mr. Downey. We are comfortable the FAA should put their 
focus on the safety side, but we are also working with the 
industry because if some of these other systems fail, it could 
have a significant effect on the movement of commerce. We don't 
want to see serious delays there, but it is safety first and 
then the other issues. We are concerned that some of the 
airports have not really looked at all the things they need to 
look at.
    Mrs. Morella. So there are a number of entities that need 
to be looked at, that are not within your purview because they 
don't involve safety, but they certainly could involve 
inconvenience at a minimum, you know, minimally, and as others 
should be looking at. I am wondering about the cruise industry, 
Secretary Downey. Is there any checking on whether or not the 
cruise ships are Y2K compliant?
    Mr. Downey. Coast Guard has been working with all of the 
elements of the maritime industry, and had a very successful 
conference in London earlier this month at which a code of good 
practice was agreed to by the industry. We believe it will be 
endorsed by the International Maritime Organization, which 
usually takes many years to get things agreed to. I think in 
this case they are going to speed up their process. This will 
allow the Coast Guard to have a quick checklist of any ship 
entering U.S. waters and determine quickly what they have done 
and what they have not done, and under our regime of port 
control, we could bar ships that are not ready for the year 
2000.
    Mrs. Morella. The Coast Guard is the one who has the 
responsibility to deal with those vessels.
    Mr. Downey. The Coast Guard has the ability to deal with 
that in U.S. waters. We are looking at it internationally 
because it is an international issue.
    Mrs. Morella. Absolutely. Right.
    Thank you, Mr. Chairman.
    Mr. Horn. On that very point, some have told us, looking at 
it on a worldwide basis, that microchips are in the refineries, 
they are in the ships, they are in the unloading and everything 
else. To what degree is the Department of Transportation 
concerned that we can't get a gasoline, a petroleum and oil 
supply into this country?
    Mr. Downey. We are working with the pipeline industry and 
the tanker industry and the refineries to assure that there 
will be a continuity of supply. The question of chips is a 
concern. We have pretty much ruled out the problem with respect 
to the pipelines.
    They have done complete checking. The issue with the ships 
is a lot more difficult than with aircraft because there is not 
the kind of tight configuration control. This is why we were so 
pleased to get the major elements of the industry together, to 
turn the problem over to them with a clear checklist of what 
they have to do. We now will know whether tankers, for 
example--and InterTankO, the trade association, was part of 
this agreement--will now have a set of steps that each operator 
can go through and that we can followup on to see if in fact 
they have been done.
    We cannot completely rule out the problem yet, especially 
in ports all around the world. The cargo cranes, for example, 
we heard when we met with Mexico a few weeks ago that they have 
been checking in their ports. They found half the cranes are OK 
but they haven't been able to verify the other half as well. So 
Coast Guard will be ready, as they always are, to deal with any 
emergencies that are generated and to be sure that we can 
maintain an adequate flow of critical materials.
    Mr. Horn. The Department of Defense has a cooperative 
relationship with Russia in terms of having our officers in 
their air defense commands, their officers in ours. Russia 
provides most of the energy supply, at least gas, coming out of 
Russia into Eastern Europe and part of Central Europe. This 
whole thing, if something goes awry, is at winter season.
    To what degree is the Department of Transportation offering 
to help Russia if they have problems? Now, it is primarily a 
pipeline going there. Maybe we are not worried about pipelines, 
I gather, but has any exchange been done between this country 
and Russia?
    Mr. Downey. Not formally, yet, but I believe there will be 
discussions at the very senior levels, and certainly the 
Department will be ready to be part of any team that is 
provided to Russia.
    Mr. Horn. I think that is a good idea because if that 
system goes out of whack, you are going to have millions of 
Europeans freezing. They just won't have the supply for the 
heat.
    Let me ask Mr. Willemssen, the Federal Aviation 
Administration has contracted with a firm, and I don't know if 
there is a name for it, it is SAIC. What does that stand for, 
pray tell? Another acronym in Washington.
    Mr. Willemssen. That is how most of us refer to it, SAIC.
    Mr. Horn. Is it SI-AC or what?
    Mr. Willemssen. Just SAIC.
    Mr. Horn. SAIC. OK. To perform independent verification and 
validation activities. In your opinion, are they performing 
both verification and validation?
    Mr. Willemsen. I think it is an excellent step that FAA 
took, to get such a contractor into the system on this effort. 
One of the areas that they may want to consider is having SAIC 
or another similar contractor also perform work for them in 
addition to double-checking, so to speak, on the documentation 
and paperwork behind certifications. They also may want to go a 
bit further and have another independent source rerun some of 
the tests to see if indeed the same results come out of those 
tests as the original tests that were done. That is especially 
true for those systems that are most essential to the air 
traffic control system. Again, it is not necessary for all 
systems.
    Mr. Horn. What are the potential consequences of not 
independently validating the system test?
    Mr. Willemsen. Well, one thing an independent test gives 
you is added insurance, especially if that independent tester 
has a mentality that ``We are going to try to find problems 
here'' as opposed to, ``Well, let's try to check this box and 
go on to the next step.'' You really need mentality with the 
organization that is doing the independent tests, in order to 
have some pretty rigorous test scripts that can identify 
potential issues that could surface themselves, if not on 
Janaury 1, 2000, on some of the other critical dates. So I 
think that is an important consideration for FAA to keep in 
mind.
    Mr. Horn. Mr. Mead, in your February memorandum you noted 
the President's Council on the Year 2000 Conversion identified 
computer security as a potential concern due to the magnitude 
of year 2000 renovation work that is being performed. So I 
guess the obvious question is, how vulnerable are the 
Department's computer systems to security threats? And is the 
FAA, Federal Aviation Administration, particularly vulnerable?
    Mr. Mead. I think it is fair to say that FAA as well as 
other parts of the Department need to step up their efforts in 
the computer security area, and it is a very formidable 
undertaking. I know DOT is not the only agency in government 
facing this issue, but internally it is something FAA and Coast 
Guard face, particularly these operational agencies.
    Mr. Horn. Is there one administration within the Department 
of Transportation that is particularly vulnerable? Or are they 
all equally vulnerable? Looks like the Railway Administration, 
for example, doesn't have as many problems as we might have 
thought they would have.
    Mr. Mead. We attempted payroll penetrability a couple years 
ago. The system was so old it was difficult to penetrate.
    Mr. Horn. You were trying to give Inspectors General an 
increase in pay, or what?
    Mr. Mead. That would be acceptable, too, Mr. Chairman.
    Mr. Horn. Somebody's 17-year-old high school student 
penetrated it, right?
    Mr. Mead. Frankly, even though FAA and the Coast Guard are 
both operational agencies and have to take care of people's 
lives as part of their daily mission, it is also true that the 
Federal Highway Administration dispenses, large amounts of 
money, and so computer security is an equal concern across the 
board at DOT.
    Mr. Downey. Mr. Chairman, if I could add a bit on that, the 
Y2K Council has been working very closely with the Critical 
Infrastructure Assurance Office which is part of the National 
Security Council, and we really view Y2K as a dress rehearsal 
for what we have to do on computer security not just in the 
government but across all of industry. It is an important area 
and we have learned a lot in the last year about what we need 
to do.
    Mr. Horn. Mr. Mead triggered in my brain the magic words, 
like Groucho Marx, the Federal Highway Administration. I am 
told back in either 1987 or 1989 a very able programmer laid it 
all out for him and said we ought to be doing this just like 
Social Security did in 1989, and the old boy network just gave 
no credence to a woman programmer, which is nonsense.
    And what I want to know now is, in 1987-1989 the Secretary 
never had a chance to talk about that issue. There was no 
management system within Transportation to get that idea 
percolating to the top so he could talk or she could talk, as 
the case may be.
    Do any of you in these different administrations, Rail and 
Coast Guard and Federal Aviation, have a problem? And I would 
think the FAA Administrator at that time would have nodded his 
head, ``Yes, sounds like we'd have a problem.'' It didn't get 
there. I guess I would ask the question, have the management 
lines within the Department of Transportation shaped up from 
those days?
    Mr. Downey. I think one of the things that will help in 
that regard is the creation of the Chief Information Officer 
position within the Department and equivalent positions. One 
has just been hired at the FAA. And that crosscutting network 
of individuals who have shared concerns, whether it is the CFO 
on finance or the Chief Information Officer or other comparable 
activities, do get us more of the sharing of activities.
    We also try to work better among the Administrators, to be 
sure that the line activities are also well coordinated. We 
have a concept now called ``One DOT.'' When someone learns 
something like that, sharing it is viewed as a very important 
activity within the Department.
    Mr. Horn. So nothing like this would happen again?
    Mr. Downey. I would hope not.
    Mr. Horn. Well, we all hope that but the problem is, is 
there a mechanism to get tough questions up to the top?
    Let me see. Ms. Garvey, the Department of Transportation's 
Chief Information Officer has issued guidance cautioning that 
the year 2000 windowing technique, which is only a temporary 
fix, could result in slower system performance. What kind of 
fixes are the Department and FAA using to ensure that its 
systems are Y2K ready?
    Ms. Garvey. I am sorry, Mr. Chairman, you mean the----
    Mr. Horn. Well, as I understand it from what staff have 
said from looking around, Transportation's Chief Information 
Officer has issued guidance concerning the so-called windowing 
technique, which is only a temporary fix, and it could result 
in slower system performance. Well, if it is a fix, is that 
going to help the Department and the FAA in the long run to 
really make sure you have done the job?
    Ms. Garvey. I think from our perspective, I may have to 
turn to staff for this, but what we are trying to do is 
renovate the systems that we have in place.
    Are you familiar with that? Let me turn to Mr. Long.
    Mr. Horn. Mr. Long, just identify yourself and give us the 
answer.
    Mr. Long. I am Raymond Long. I am the Director of the FAA's 
year 2000 project. The FAA is using a windowing technique on 
our existing legacy, older systems. On all of the new systems 
that are being deployed into the FAA, we are requiring that 
those contracts be modified to show four digit date expansion.
    The only place for using windowing is in our legacy, older 
systems. We have not tested for system degradation as we are 
doing the window technique. It has not been a problem up until 
now because the air traffic control system does not use the 
date like your microcomputers or your other systems. It is 
something we can include in our post-implementation activity if 
we felt we needed to.
    Mr. Horn. Mr. Willemssen, do you have any comment on this?
    Mr. Willemsen. Windowing is a commonly accepted technique, 
especially as time grows short and there is not enough time to 
expand all the date fields. The biggest issue that I would be 
concerned about, rather than a performance issue, is one of 
data exchanges because if a particular system has been windowed 
and is staying with two digits, and if that particular data is 
sent to another organization and they are expecting full 
expansion, and if the relationships and bridges have not been 
worked out, you risk having some degraded data going into 
another system. Windowing is a generally accepted technique but 
like all techniques, it has its risks.
    Mr. Mead. In our February comfort letter to the Secretary 
and Deputy Secretary on this matter, we indicated that tests on 
performance issues should be more robust.
    Mr. Horn. OK. Mrs. Morella, 8 minutes, since I ran over. 
Equity is what we engage in.
    Mrs. Morella. You're so precise. Thank you.
    Secretary Downey, I represent Montgomery County, MD, and 
Montgomery County, MD, has been recognized nationally for its 
advanced transportation management system and other 
technologies that are used for transportation. I wondered what 
you are doing to work with a jurisdiction like that, 
particularly in terms of assisting other localities and 
jurisdictions with regard to what's been done and what can be 
done?
    Mr. Downey. Montgomery County has in fact been one of our 
poster children for good practice and good progress. We held a 
workshop in January at the Transportation Research Board, which 
is the get-together that has thousands of people from highway 
and transit management around the country. We got all of the 
entities together that have concerns about Y2K and we asked 
Gordon Ayogi, who is running the emergency center in Montgomery 
County to take everyone through what, in fact, they have done, 
and it was very helpful for us.
    The Intelligent Transportation Society of America [ITSA], 
has been our partner in reaching out to traffic control, 
traffic information, and other computer-based systems around 
the country, and we think things are in pretty good shape in 
that area, but we appreciate the help from Montgomery County in 
sharing their experience.
    Mrs. Morella. Excellent. Glad you are utilizing that with 
other jurisdictions.
    I guess I would ask this question of maybe Mr. Mead, and 
Mr. Willemssen may want to comment, maybe Ms. Garvey. Actually, 
most completed and planned tests of the air traffic control 
systems have been done at the FAA's tech center. In the past, 
has the FAA experienced problems installing tech center 
solutions out in the field? Ms. Garvey, you may want to comment 
on it also.
    Mr. Mead. In some instances, and you'll note in our 
statement that we make a point, as a cautionary note, that 
testing in the laboratory can sometimes be different when you 
go into the real world. One reason for that, particularly for 
the FAA, is throughout the National Airspaces system, the FAA 
has made local adaptations to their software systems, and for 
that reason, occasionally when you install something that works 
in the laboratory, it may not work in the field because of 
local adaptation. This particular factor is one that 
contributes to the great challenge remaining in the next 3 
months.
    Mrs. Morella. Mr. Willemssen, you want to comment.
    Mr. Willemsen. I would concur with the Inspector General's 
comments. That is not to say that the technical center testing 
has necessarily been deficient, but it is to be expected that 
once you go with live operational testing, that you will come 
up with some issues that weren't fully identified or considered 
in the laboratory.
    Ms. Garvey. I think that is absolutely correct, and that is 
why the Denver test, which really is a live site, is going to 
be so important. And again, we very carefully laid it out step-
by-step. It is going to be very carefully monitored. Obviously 
it is 2 a.m., so traffic will be less, but we expect that that 
will be very useful, very similar to what Wall Street did a 
couple of weeks ago in testing some of their systems. We think 
this is going to be a critical and important test, and we are 
looking forward to it.
    Mrs. Morella. Did you say April was when you were going out 
to Colorado?
    Ms. Garvey. April 10th, yes.
    Mrs. Morella. I think we all agree that this is an area 
that is fraught with challenges and problems. Let me ask you, 
first of all, would you be doing any other testing after 
Denver?
    Ms. Garvey. That is the one that is scheduled right now. I 
think a lot will depend on what we learn from that test. We 
don't have any other similar tests like that. We have lots of 
tests planned at the tech center but for live tests, that is it 
for right now.
    Mrs. Morella. You may want to do that.
    Ms. Garvey. Oh, yes. And of course at each center as it is 
implemented will be tests, as the Deputy Secretary reminds me.
    Mrs. Morella. I also note that a report I think is going to 
be forthcoming, I want to ask you about it, of what are the six 
most populous sites in terms of an assessment or appraisal of 
them, like Canada, Bahamas. Would you comment on that?
    Ms. Garvey. There are six countries where about 60 percent 
of the Americans travel. We are working very, very closely with 
each one of those. Knowing that that is such a high percentage, 
we are working very closely with those.
    In fact, either the Secretary, the Deputy Secretary or I 
have met with them at some point during the last year, and in 
each case we will be developing a very coordinated work plan 
for dealing with some of the issues, the travel issues that we 
have. Not surprisingly, we are probably a little further along 
with Mexico and Canada. We have a trilateral meeting, as I 
mentioned, in May, and that will be discussed there.
    But Joe Morgan, who leads our international effort, has 
worked very closely with these counties, went to Mexico and 
spent a good deal of time working on a plan together with them. 
As I mentioned earlier, we are doing the testing this month 
with Canada. We will follow it up with Mexico, and the other 
countries as well.
    But that was the first critical issue that we looked at. We 
said, where is it? As everyone has suggested, the international 
presents some real challenges, so the first thing we said, are 
there areas where we really need to focus some efforts? Looking 
at those six countries where so many people travel seemed to be 
very important.
    Mrs. Morella. It is interesting that 60 percent travel 
there.
    Mr. Downey. We also had, under the auspices of the Y2K 
Council, a meeting a few weeks ago with Canada and Mexico on 
all of the systems, power, travel systems, railroads, police, 
anything in which there is exchange across the border, and I 
think we have a very good working relationship with those two 
countries.
    Mrs. Morella. What have you learned so far?
    Mr. Downey. We have learned some interesting things. 
Mexico, for example, has done I think a much more careful 
measure of how they are assessing their progress. They have a 
weighted average that really gives credit to how much work has 
been done leading up to the completion of a system so that they 
really know at any given time, I think better than we do, where 
they are on the whole process.
    And of course there are--you know, there are always 
surprises that pop up. There is useful information exchanged 
about what are you hearing, what are the rumors in your 
country, and it turns out to be similar to the rumors in our 
country, but these kinds of discussions country-to-country and 
industry-to-industry are very helpful.
    We had one the other day for all industries that lead to 
getting coal to the power plants. The power plants are clearly 
critical but they won't work if coal doesn't get there. So we 
had the mining industry, the barge and the railroad industry 
all in one room at one time. The biggest issue for the mines 
was elevators. They are now comfortable their elevators are 
going to work, for the same reason that elevators will be 
working in buildings.
    Mrs. Morella. Any kind of dangerous issues that came up so 
far?
    Mr. Downey. None yet. Nothing that sort of a light bulb 
went off and where we said we better take critical action.
    Mrs. Morella. Very good.
    I yield back, Mr. Chairman.
    Mr. Horn. Thank you. Let me just ask Mr. Downey, I have 
forgotten what year you joined the Department of Transportation 
as Deputy Secretary.
    Mr. Downey. Most recently as Deputy Secretary in 1993, 
although I was in the Department in the 1970's.
    Mr. Horn. Well, you'll remember that in 1993-1994 you had 
that operation--I forgot, was it in Germantown or somewhere out 
there--were working on a new radar system. Maybe you don't want 
to remember it.
    Mr. Downey. I try to forget that.
    Mr. Horn. It started before you, so you don't have to worry 
about it.
    Mr. Downey. We shut that one down, but it was a good 
example of bad management.
    Mr. Horn. I knew that as I walked into the room. The $4 
billion was dumped. IRS did the same thing. Now, all I am 
asking about is not to rehash that dog but to--is that HOST a 
successor to that, or are you underway on some other type of 
successor?
    Mr. Downey. HOST is a piece of that and it is an 
interesting piece. Once we made the decision that a single 
contract with a single contractor for unlimited funds and 
unlimited time was not the way to proceed, working with the 
FAA, and largely these were FAA decisions, we broke the system 
down into a number of pieces: the display system radar at the 
major en route centers, which is now moving well; the system at 
the terminals, which is in reasonable shape although it has 
some problems; and then the HOST, which is the heart of the 
computer capacity at the centers.
    At the time, 1992-1993, it was thought that the HOST could 
be put at the far end of this process as we did each piece, but 
when we came to look at Y2K issues, and similar to the question 
you raised earlier, the manufacturer was unable to certify this 
equipment. We said, whoa, it is time to accelerate that as part 
of the modernization process, but also as a backstop for Y2K. 
Having it as a separate module as opposed to part of this 
overall process allowed us to break out a separate contract, 
move that ahead.
    It is going very well. In fact--was it Friday--Thursday the 
Administrator and the Secretary were up in New York to dedicate 
the first HOST, and several of them are now in business and 
operating regularly as part of the air traffic control system. 
All of them should be in place by the end of the year. If they 
are not, there are backup strategies to be sure they will be 
Y2K compliant. But breaking that massive project into a series 
of manageable pieces was the right thing to do, and it is 
working for us here as it is in the modernization effort.
    Mr. Horn. So HOST is 2000 compliant?
    Mr. Downey. HOST will be 2000 compliant. How many centers 
is it now functioning? In 10 centers it is working today in a 
Y2K compliant mode.
    Mr. Horn. And it would have to work in how many centers 
between now and January?
    Mr. Downey. Ten more have to be installed.
    Mr. Horn. So it is a total of 20?
    Mr. Downey. Total of 20.
    Mr. Horn. What is this project costing, just for curiosity?
    Ms. Garvey. In total, I would have to get the number for 
you, Mr. Chairman, but it is certainly far less than the number 
you talked about earlier.
    Mr. Horn. Less than $4 billion. But you were right to pull 
the plug. This was long before Ms. Garvey came to bring order 
out of chaos.
    Mr. Mead. $172 million.
    Mr. Horn. How much?
    Mr. Mead. $172 million.
    Mr. Horn. $172 million is the HOST 10. How about the next 
10?
    Mr. Mead. $172 million for the whole job.
    Mr. Horn. For the whole job?
    Mr. Mead. Yes. I think it is important to note that last 
time we testified before this subcommittee, we had run out of 
spare parts, but if FAA cannot replace all 20 HOST computers in 
this year, they'll have enough cannibalized HOSTs to generate 
spare parts.
    Mr. Horn. They'll no longer have to use Post-Its on the 
windows of the control tower?
    Mr. Mead. No.
    Mr. Horn. That is reassuring to me, because I am carrying 
my own Post-Its in case they needed it in L.A.
    Do you have any thoughts in the end, unless you have more 
questions?
    Mrs. Morella. I will just ask another question, and then 
I'm going to ask them if there is anything they'd like us to 
know as we conclude this particular hearing and before we get 
the final report.
    Actually, I guess GAO, to begin with FAA identified 26 air 
traffic systems as posing the greatest risk to the national 
airspace system that may not be operational through the year 
2000, and these systems are going to be among the last FAA 
systems to be completed. And I guess the question is, why would 
the most at-risk systems be left for last, and why wouldn't--
why aren't they scheduled for completion earlier?
    Mr. Willemsen. I think among the reasons for that is often 
they are the most challenging systems to fully validate and 
implement at a number of facilities throughout the country. So 
I don't know that it necessarily was a conscious decision on 
their part. That is, we have no evidence that FAA said, ``Well, 
these are the most critical so we will wait till the end.''
    On the contrary, the evidence we saw, as one might expect, 
was that those systems are among the most difficult to 
implement and therefore, everything else being equal, will take 
longer. But I think your point is a very good one, that FAA has 
to still focus on priorities, and we have to make sure that 
those most essential systems are dealt with not only timely 
but, as I have mentioned earlier, thoroughly. Also, someone 
must aggressively seek out to identify any and all problems 
that may occur, and there must be enough time left in the 
remainder of this year to address those problems.
    Mrs. Morella. Mr. Mead, would you agree? Do you think that 
because they would take longer and be more critical, that they 
should be looked at earlier? I moved up on the timetable.
    Mr. Mead. In an ideal world, yes. These are probably the 
most complex of all the undertakings and because of the late 
start, that had a cascading effect throughout the schedule. So 
in an ideal world, I wish it had already been done. I am sure 
everybody does.
    Mrs. Morella. Do you have a gnawing concern about it?
    Mr. Mead. No, I think FAA has a sensible plan. I know it is 
a compressed schedule, but I have confidence in FAA's year 2000 
management. They set their mind to it. I think they can get it 
done.
    Mrs. Morella. I think the FAA has been working very 
diligently, and as I have mentioned before and you mentioned in 
your opening statement, Ms. Garvey, working around the clock. 
It is such a tremendous system and so connected in so many 
ways.
    Secretary Downey, also on another transportation issue, how 
about Metro? What are you doing to sort of coordinate what's 
happening, to make sure that the public transit systems are 
going to be compliant?
    Mr. Downey. We have worked with the public transportation 
systems around the country. We had a conference in Houston just 
a few weeks ago to compare notes and to share information. We 
have also asked, under Federal Transit Authority's general 
authority to regulate the funding that flows to these entities, 
to get that funding they have to be technically proficient, and 
we have set Y2K compliance or comparable safety levels as part 
of that proficiency. We have asked the boards of each public 
transit agency in the country to certify to us by the end of 
June that they are compliant or tell us what their alternate 
plans are.
    So we look forward to hearing from Metro on that. I know 
that they work closely on this issue. I have talked with Dick 
White about it. I know they are having some trouble as we speak 
with their computer systems, but that shows that they are very 
much focused on making that system work and work safely.
    Mr. Mead. Mrs. Morella, I would like to just submit for the 
record, if it would be permissible, the letter from 
Administrator Linton of the Federal Transit Administration 
asking for all transit properties to certify their compliance 
before the year 2000 because this is a comparable 
recommendation we are making to FAA.
    Mr. Horn. Without objection, that will be put in the record 
at this point.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED]60888.047
    
    [GRAPHIC] [TIFF OMITTED]60888.048
    
    [GRAPHIC] [TIFF OMITTED]60888.049
    
    [GRAPHIC] [TIFF OMITTED]60888.050
    
    [GRAPHIC] [TIFF OMITTED]60888.051
    
    [GRAPHIC] [TIFF OMITTED]60888.052
    
    [GRAPHIC] [TIFF OMITTED]60888.053
    
    [GRAPHIC] [TIFF OMITTED]60888.054
    
    Mrs. Morella. Are you finding that they are having--I mean 
transit systems, not just Metro, and I am going to specifically 
ask you about what our Metro here in Washington is doing in 
terms of its compliance, but in general are these public 
transit systems encountering problems with funding because they 
get some of it from States and localities?
    Mr. Downey. Having been in the public transit business most 
of my life, I would say public transit systems are always 
having problems with funding, but in this case most of them 
have put the Y2K compliance issue at the top of their list. We 
helped in that respect by giving clear guidance that any and 
all Federal funds that they receive may be used for this 
purpose, simplifying the process to get planning approvals, and 
also giving approval for simplified procurement where it was 
needed to use the funds effectively.
    We don't think that that should be a problem. We think 
getting focused on it, working through the issue of how their 
rail equipment or bus equipment may differ from anybody else's 
bus or rail equipment, it is what they have to do. The large 
transit agencies around the country I think are working very 
hard at this. They are all in town this week. Both the 
Administrator and I will be speaking with them this afternoon, 
and this will be on my list in terms of what we expect them to 
be doing.
    Mrs. Morella. You tell them that Congress feels the same 
way, too, and the Washington--I mean the Nation's Capital 
system should be a leader. Are they a leader?
    Mr. Downey. They are a leader in working on this.
    Mrs. Morella. I just want to--I want to thank you from my 
point of view for answering so honestly, not only answering our 
questions and being here, but the work that you have done 
preparatory to that and how all along you have worked so very 
well with Congress. We wish you well.
    And Mr. Chairman, I would like to ask unanimous consent 
that Mr. Barcia, the ranking member of the Technology 
Subcommittee, that his statement and statements of any other 
members of our two subcommittees be included in the record.
    Mr. Horn. Without objection, they will be put after Mr. 
Turner at the beginning of the hearing record.
    I want to thank all of the four witnesses. You have been 
very helpful to us.
    First I want to thank, before I close this, the staff that 
put this hearing together: J. Russell George, the staff 
director and chief counsel in the corner down there, of the 
Subcommittee on Government Management, Information, and 
Technology; Matt Ryan, the senior policy director specifically 
responsible for this hearing, right behind me; Bonnie Heald, 
professional staff member, director of communications, 
immensely helpful; Mason Alinger, our clerk who has been very 
helpful. And for Mrs. Morella's Subcommittee on Technology of 
the House Science Committee, Jeff Grove, the staff director on 
Technology, we thank him and Joe Sullivan, the clerk, and Ben 
Wu, the professional staff member. And our friends on the other 
side of the aisle, Faith Weiss, the counsel, and Jean Gosa, the 
clerk, and Mike Quear, the professional staff member, and Marty 
Ralston, the clerk, have worked and done a very helpful job. 
And we thank our court reporters, as usual, Doreen Dotzler and 
Laurie Harris. It takes a lot of people to prepare the hearing 
and permit us to have questions that are so interesting to you.
    Let me now thank those that are here, and say that I think 
this testimony of yours has been very compelling, and it has 
shown that Transportation and the Federal Aviation 
Administration will continue to be industrious and vigilant in 
order to solve this problem, and we appreciate that burst of 
energy that will be needed to get around the course and win the 
game.
    The Department of Transportation and the FAA provide vital 
services to our country. Our citizens and our economy depend on 
the safe and expedient transportation of both personal and 
business travel, goods and services, and I am concerned we have 
a lot of work to do. I have got a lot of faith in the people 
before us, that it will be done, and that you'll need the 
continued collaboration of Departmental officials, the airline 
industry, the airports themselves to ensure that the system is 
ready by January 1, 2000.
    I appreciate the Secretary's and the Administrator's 
reinvigorated leadership to solve some of these technology 
challenges, and I think a lot of work still remains to satisfy 
all of us. And we will know, won't we, on January 1st when you 
are flying and I am flying? Just don't bump into my plane when 
we go across America. And I have told you, before be very nice 
to the controllers for the week before we board those planes.
    And our oversight activities will continue on this agency 
as well as all others. Later in the week we are going to hear 
from the Federal Aviation Administration's other hat and our 
other hat, the financial management practices, which have 
nothing to do with Y2K except ``Where's the money?'' as 
somebody said, and can you put a balance sheet out. So Mr. 
Willemssen will be back and we will be back.
    So I thank you all for your helpfulness on this, and we 
wish you well in the months ahead. With that, the hearing is 
adjourned.
    [Whereupon, at 11:40 a.m., the subcommittees were 
adjourned.]

                                   - 

</pre></body></html>
